No. 20-195

 

IN THE

Supreme Court of the United States

MUCKLESHOOT INDIAN TRIBE,

Petitioner,
v.

TTULALIP TRIBES, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,948 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 7, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
